Risk Assessment of Major Functions Within
USAID/Ecuador
Report No. 1-518-03-001-S

October 1, 2002




                  San Salvador, El Salvador
             RIG/San Salvador




             October 1, 2002

             MEMORANDUM

             FOR:               USAID/Ecuador Director, Lawrence J. Klassen

             FROM:              RIG/San Salvador, Timothy E. Cox

             SUBJECT:           Risk Assessment of Major Functions Within USAID/Ecuador
                                (Report No. 1-518-03-001-S)

             This memorandum is our report on the subject risk assessment. This is not an
             audit report and does not contain any formal recommendations for your action.

             Thank you for providing comments to the draft report. Your comments are
             included in Appendix II of this report.

             Once again, I appreciate the cooperation and courtesy extended to my staff during
             the risk assessment.



Background   Ecuador faces a variety of development challenges. According to the fiscal year
             2003 Budget Justification to the Congress, USAID noted that, although the
             economy is improving, inflation and unemployment in 2001 were high at 24
             percent and 11 percent, respectively. Furthermore, 70 percent of Ecuador’s
             population lives in poverty, confidence in democracy is dangerously low, and
             narco-terrorism from Colombia increasingly threatens the northern border region.




                                                                                                 1
             USAID/Ecuador’s program areas and their approximate fiscal year 2001 and 2002
             funding levels, in millions, are presented in the following table:

                                                                   FY 2001       FY 2002

              Southern Border Integration                                $ 3.1      $ 2.3

              Northern Border Development                                  8.0       10.0

              Poverty Reduction                                            3.5        6.9

              Democracy                                                    5.3        7.6

              Biodiversity Conservation                                    5.0        7.4

                                                                         $24.9      $34.2

             The U.S. General Accounting Office (GAO) noted in Standards for Internal
             Control in the Federal Government (November 1999) that internal controls should
             provide reasonable assurance that agency objectives are being achieved, operations
             are effective and efficient, and assets are safeguarded against loss. Conducting
             risk assessments is one technique identified by the GAO to enhance internal
             controls.

             The purposes of the risk assessment were to assist the Regional Inspector General
             in planning future audits and to identify opportunities for improvement in
             USAID/Ecuador operations. Our scope and methodology are presented in
             appendix I.



Discussion   In judging the risk exposure for the major functions in USAID/Ecuador, we
             considered:

             •   the amount of funding the individual programs received relative to the overall
                 mission budget (see above details of the mission’s $34.2 million fiscal year
                 2002 program budget),

             •   the level of U.S. interest in the program activities,

             •   the level of involvement and/or support provided by the Government of
                 Ecuador,

             •   the experience of key staff members in their area of expertise as well as in
                 Ecuador,


                                                                                                  2
•    incidences of improper administration or material weaknesses (if any) noted in
     prior reviews and/or as reported by mission officials,

•    management support for internal controls, and

•    the level of risk inherently present in an activity that program or administrative
     objectives will not be met.

Our risk assessment of USAID/Ecuador covered nine functions. We judged two
functions to have a “high” risk exposure, four functions to have a “moderate” risk
exposure, and three to have a “low” risk exposure. These judgements are
discussed in the following tables.

                   Function Description                           Risk Exposure
 Southern Border Integration – Income generation,                   Moderate
 access to social services, natural resources
 management, and effective local governance

                               Risk Assessment Factors

 •    This function has been funded at levels lower than originally planned. With
      fiscal year 2001 and 2002 funding levels of approximately $3.1 million and
      $2.3 million, the function received less funding than the mission’s other
      program areas.

 •    The function’s activities consist of a mix of lower risk activities, such as
      technical assistance to micro entrepreneurs, and higher risk activities, such as
      construction of public health infrastructure.

 •    Activities are implemented through a cooperative agreement with CARE
      International. The fiscal year 2002 funding for CARE was $2.2 million.
      CARE has numerous sub-grantees.

 •    The managers responsible for the function’s activities have at least 10 years
      of experience with USAID.

 •    CARE is subject to audit under Office of Management and Budget (OMB)
      Circular No. A-133. Additionally, mission management decided to conduct
      its own financial review of CARE.

 •    Audits were not obtained for sub-grantees. According to mission officials,
      sub-grantee expenditures did not reach the threshold that would require an
      audit.



                                                                                      3
Southern Border Integration (continued)

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.



                  Function Description                           Risk Exposure
Northern Border Development – Improved health                        High
conditions in vulnerable towns, improved
infrastructure, and strengthened civil society

                             Risk Assessment Factors

•   With fiscal year 2001 and 2002 funding levels of approximately $8 million
    and $10 million, the function was the most significant portion of the
    USAID/Ecuador portfolio.

•   Funded as part of the Andean Counter-Narcotics Initiative, the function is
    high profile and sensitive.

•   The function’s activities consist of a mix of lower risk activities, such as
    support for land titling for small farmers, and higher risk activities, such as
    construction of roads, bridges, and irrigation systems.

•   The manager responsible for the function’s activities has 10 years of
    experience with USAID.

•   Activities are implemented through a cooperative agreement with the
    International Organization for Migration (IOM). The fiscal year 2002
    funding for IOM was $9.2 million. IOM is a public international
    organization.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.




                                                                                      4
                Function Description                              Risk Exposure
Poverty Reduction – Micro-finance development and                   Moderate
improved policy and investment climate (macro-
economic issues)

                             Risk Assessment Factors

•   With fiscal year 2001 and 2002 funding levels of approximately $3.5 million
    and $6.9 million, the function was a significant portion of the
    USAID/Ecuador portfolio.

•   Micro-finance activities are well defined with solid indicators and data
    sources.

•   Macro-economic activities are being undertaken at a high level. Attribution
    of progress to USAID is difficult to establish.

•   Success of macro-economic activities is highly dependent upon political will
    and government support.

•   Activities are primarily technical assistance and training.

•   Activities are implemented through contracts with Development Alternatives
    Incorporated (DAI) and with the World Council of Credit Unions
    (WOCCU). The fiscal year 2002 funding for DAI and for WOCCU was $4.5
    million and $1.5 million, respectively.

•   DAI is subject to audit by the Defense Contract Audit Agency. WOCCU is
    subject to audit under OMB Circular No. A-133.

•   Management monitors function activities through review of annual work
    plans and periodic progress reports.




                                                                                   5
                 Function Description                          Risk Exposure
Democracy – Improved transparency and                              High
accountability of democratic institutions, greater
inclusiveness of democratic processes, and increased
policy consensus in key democratic areas

                            Risk Assessment Factors

•   With fiscal year 2001 and 2002 funding levels of approximately $5.3 million
    and $7.6 million, the function was a significant portion of the
    USAID/Ecuador portfolio.

•   The function’s activities are being implemented in a difficult environment.
    Despite having been a democracy for over 20 years, Ecuador has not
    institutionalized that form of government. Public confidence in democracy is
    low.

•   There may be a lack of political will for reform within government
    institutions in some areas.

•   Activities are implemented through a contract with Associates in Rural
    Development (ARD), through a cooperative agreement with the Esquel
    Foundation, and through several others including sub-grantees. The fiscal
    year 2002 funding for ARD and for the Esquel Foundation was $3.3 million
    and $1.5 million, respectively.

•   The managers responsible for the function’s activities have at least 10 years
    of experience with USAID.

•   Staffing constraints have hampered effectiveness. Additional staffing is
    planned.

•   ARD is subject to audit by the Defense Contract Audit Agency. A local
    public accounting firm audits the Esquel Foundation.

•   Management plans to review the financial and administrative capacity of
    some sub-grantees.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.




                                                                                    6
                 Function Description                            Risk Exposure
Biodiversity Conservation – Protection of Quito’s                  Moderate
watershed, conservation of the Galapagos Islands, and
protection of habitats in the northern border region

                             Risk Assessment Factors

•   With fiscal year 2001 and 2002 funding levels of approximately $5.0 million
    and $7.4 million, the function was a significant portion of the
    USAID/Ecuador portfolio.

•   Program activities are in a state of transition. Most current activities will be
    terminating in 2003.

•   Commercial interests seeking greater access to tuna fishing have opposed
    activities in the Galapagos Island Marine Reserve.

•   Activities are implemented through cooperative agreements with CARE
    International, The Nature Conservancy (TNC), and the Charles Darwin
    Foundation. The fiscal year 2002 funding for CARE, TNC, and the Charles
    Darwin Foundation was (in thousands) approximately $518, $875, and $250,
    respectively.

•   Other activities are implemented under interagency agreements with the U.S.
    Department of Interior (DOI). Fiscal year 2002 funding for the DOI was
    $2.1 million.

•   Fiscal year 2002 purchase orders, grants, and contracts in excess of $2.9
    million are pending award.

•   CARE and TNC are subject to audit under OMB Circular No. A-133. A
    local public accounting firm audits the Charles Darwin Foundation.

•   Managers responsible for the function’s activities have at least 10 years of
    experience with USAID.

•   Management monitors function activities through review of annual work
    plans, periodic progress reports, and site visits.




                                                                                       7
                 Function Description                          Risk Exposure
Contracting Office – Contract negotiation, contract                 Low
drafting, and contract management services

                            Risk Assessment Factors

•   USAID/Ecuador does not have a U. S. Direct Hire Contracting Officer. The
    Regional Contracting Officer in Lima, Peru supports the mission.

•   The Contracting Office staff member, a contracting specialist, has 13 years
    of experience with USAID.

•   Contracting Office staff is a member of the strategic and special objective
    teams responsible for implementing functions.

•   The contracting specialist makes periodic site visits and performs analyses of
    financial data submitted by USAID partners.

•   A procurement plan has been prepared and is reviewed regularly.



              Function Description                             Risk Exposure
Program Office – Coordinates budget and annual                      Low
reporting

                            Risk Assessment Factors

•   Operations are structured with oversight from USAID/Washington and
    mission management.

•   The manager responsible for the office’s activities has 15 years of experience
    with USAID. However, management is in a state of transition. A
    replacement office chief has been assigned to post.

•   Office personnel are members of the strategic and special objective teams
    responsible for implementing functions.




                                                                                     8
                 Function Description                         Risk Exposure
Executive Office – General services, information                Moderate
systems, personnel, procurement, maintenance, motor
pool, and property management

                             Risk Assessment Factors

•   We judged the function to have a high level of inherent risk due to the high
    number of regulations and procedures that must be followed in performing
    functions.

•   USAID/Ecuador does not have a U.S. Direct Hire Executive Officer. The
    mission is supported by the Regional Executive Officer in Lima, Peru.

•   The Regional Executive Officer is authorized to approve procurements and
    periodically visits USAID/Ecuador.

•   Local hire Executive Office staff have between 7 and 22 years of experience
    with USAID.

•   The Executive Office in Ecuador has a customer service plan that
    incorporates performance targets.

•   Draft information systems contingency and security plans have been
    developed.

•   Inventory is counted at least annually.

•   Vehicle usage reports are prepared monthly.


              Function Description                            Risk Exposure
Financial Management Office – Accounting,                          Low
voucher payment, and financial analysis

                             Risk Assessment Factors

•   USAID/Ecuador is not an accounting station. The mission does not have a
    U. S. Direct Hire Controller. The Financial Management Office in Lima,
    Peru supports the mission.

•   The Deputy Controller in Lima is authorized to certify vouchers and
    periodically visits USAID/Ecuador.



                                                                                   9
 Financial Management Office (continued)

 •   Local hire Financial Management Office staff members have between 2 and
     18 years of experience with USAID.

 •   Office personnel are members of the strategic and special objective teams
     responsible for implementing functions.

 •   Operations are structured, documented, and periodically reviewed.


During the course of the risk assessment, we noted a number of formal and
informal procedures that were incorporated by USAID/Ecuador to manage its
programs. We are making, based on our conversations and limited review of
mission documentation, the following suggestions for mission management to
consider. These are not formal audit recommendations. The suggestions do not
necessarily represent deficiencies but involve possible improvements or
enhancements to activities already in process.

•    Although not required by policy, USAID/Ecuador does not document formal
     cost/benefit analyses of potential development activities before they are
     selected for implementation. Enhancement to the new activity selection
     process could be attained through documenting the costs and benefits of
     competing activities before determining which to implement.

•    USAID policy requires non-U.S. recipients who spend more than $300,000 in
     a year to obtain a financial audit. In some cases, these recipients may receive
     less than the threshold in a year but over several years may still spend a
     significant amount. Likewise, an audit may be justified based on non-
     financial implementation risks facing the recipient. USAID/Ecuador could
     consider whether sub-grantees expending less than $300,000 per year merit
     being audited based on the cumulative amount of multi-year awards or other
     risk factors.

•    At times, the initially planned funding levels are reduced over the life of an
     activity. The mission could, in planning activities, assess the likelihood of
     funding shortfalls in the implementation design. By anticipating different
     funding levels, USAID/Ecuador could incorporate contingencies into the
     activity design to minimize the impact of funding cuts on the effectiveness of
     planned activities.

•    Site visits are an integral part of USAID/Ecuador’s monitoring plan.
     Although activity managers make frequent field visits, they do not select sites



                                                                                  10
                   based on a field visit strategy. USAID/Ecuador could enhance the
                   effectiveness of its monitoring and data verification activities by documenting
                   field visit strategies.

             •     Due to its relatively small size, the mission did not have a proper segregation
                   of duties over the inventory, procurement, receiving, and warehousing
                   functions. Management should ensure that mitigating controls are in place to
                   compensate for the lack of segregation of duties.

             •     USAID/Ecuador analyzes the month-to-month fluctuations in vehicle
                   performance and operating cost. The mission could benefit by performing a
                   12-month trend analysis of vehicle performance and operating cost.

             •     One of the activities at the mission is being implemented by the International
                   Organization for Migration (IOM). Often with activities implemented by
                   public international organizations, donors do not have audit rights. In this
                   instance, since USAID is the sole donor, the agreement grants audit
                   privileges. The mission should consider contracting for a financial audit of
                   the $17.1 million IOM activity.

             •     The Executive Office has created a customer service plan that includes
                   performance measures. However, the office does not collect statistics to
                   measure performance against those targets. The office should consider
                   collecting data to measure performance.

             •     Draft information systems security and disaster recovery/contingency plans
                   have been completed. However, sections of the plan are presented at a
                   general level. The mission could improve the usefulness of the plans by
                   including detailed recovery steps, a testing strategy and a testing schedule in
                   the information systems contingency plan.



Conclusion   This review assigned a risk exposure judgement of high, moderate, or low for each
             major function. The risk assignments are summarized in the table below.

                                                                     Risk Exposure
                          Function Description                  High   Moderate    Low
                 Southern Border Integration
                                                                             9
                 Northern Border Development
                                                                 9
                 Poverty Reduction
                                                                             9

                                                                                                 11
                                                       Risk Exposure
          Function Description                  High     Moderate    Low
  Democracy
                                                 9
  Biodiversity Conservation
                                                             9
  Contracting Office
                                                                         9
  Program Office
                                                                         9
  Executive Office
                                                             9
  Financial Management Office
                                                                         9
A higher risk exposure judgement implies that the program objectives for a
particular function are more vulnerable to not being achieved or to experiencing
irregularities. Appendix I describes in detail our risk assessment’s scope and
methodology.




                                                                                   12
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Ecuador. The risk assessment considered
              operations principally for fiscal year 2002. The risk assessment was conducted at
              USAID/Ecuador from June 3 – 7, 2002.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by USAID/Ecuador. These documents covered background,
              organization, management, budget, staffing responsibilities, and prior reviews.
              Our review of mission documentation was isolated and judgmental in nature and
              was conducted principally to confirm our discussions with management.

              We identified USAID/Ecuador’s major functions based on input from the Mission
              Director, discussions with mission staff, and review of mission reports. We judged
              risk exposure (e.g., the likelihood of significant abuse, illegal acts, and/or misuse
              of resources, failure to achieve program objectives, and noncompliance with laws,
              regulations and management policies) for those major functions. We assessed
              overall risk exposure as high, moderate, or low. A higher risk exposure simply
              indicates that the particular function is more vulnerable to not achieving its
              program objectives or to experiencing irregularities. We considered the following
              key steps in assessing risk exposure:

              1. significance and sensitivity;

              2. susceptibility (inherent risk) of failure to attain program goals, noncompliance
                 with laws and regulations, inaccurate reporting, or illegal or inappropriate use
                 of assets or resources;

              3. "red flags” such as a history of improper administration or material weaknesses
                 identified in prior audits/internal control assessments, poorly defined and
                 documented internal control procedures, or high rate of personnel turnover;

              4. management support and the control environment;

              5. competence and adequacy of number of personnel;

              6. relevant internal controls; and

              7. what was already known about internal control effectiveness.




                                                                                                13
                                                                         Appendix I

These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of internal controls for major functions. As
part of the scope of our review, we (a) identified, understood, and documented
(only as necessary) relevant internal controls and (b) determined what was already
known about the effectiveness of internal controls.

Our risk assessment has the following limitations.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. Our assessments were not sufficient
    to make definitive determinations of the effectiveness of internal controls for
    major functions. Consequently, we did not (a) assess the adequacy of internal
    control design, (b) determine if controls were properly implemented, nor (c)
    determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives are not being achieved or that irregularities are occurring.
    A higher risk exposure simply implies that the particular function is more
    vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units is
    of limited usefulness due to the fact that the assessments consider both internal
    and external factors, some being outside the span of control of management.




                                                                                   14
                                                                                        Appendix II


Management
Comments

          2/11/03

          Lars Klassen, USAID/Ecuador Director

          Risk Assessment of Major Functions Within USAID/Ecuador (Draft Report)

          Tim Cox, RIG/San Salvador

          Below are the Mission’s comments in response to the suggestions stated in the subject
          draft report:

       1. Document formal cost/benefit analysis of potential development activities. The Mission
          appreciates RIG’s suggestion that the Mission document formal cost/benefit analysis. If
          we were to undertake cost/benefit analysis on future projects, it would easily complicate
          analysis work we perform regarding factors such as sustainability, environmental,
          political, and technical considerations. For example, under our Northern Border program
          a range of criteria are already being designed and used which take into account many
          selection criteria to give an overall picture. One such element is economic feasibility
          which addresses cost. However, undertaking such a suggestion Mission-wide has other
          broader implications.

          The current Agency Automated Directives System (ADS), upon which Agency design
          documentation is outlined, specifies that financial analysis is an optional analysis that an
          operating unit may undertake during the preparation of its strategy. It also includes non-
          mandatory guidance on the design of activities wherein documentation flexibility is the
          key. The ten steps in activity design do not require a cost analysis nor is there reference
          to same. If you believe RIG’s suggestion on cost/benefit analysis has broader application
          to Agency operations, we would recommend that RIG contact PPC/PC in AIDW to
          discuss whether such a recommendation should change Agency policy. We are sure you
          can appreciate that we would not want to commit to implementing such a suggestion
          across the board if it is not required.

       2. Assess whether sub-grantees expending less than $300,000 per year merit being audited.
          The assessment will be done every year when the audit inventory/plan is being prepared.

       3. In planning activities assess the likelihood of funding shortfalls in the implementation
          design – be proactive rather than reactive. Our long term future program funding levels
          are uncertain. We are currently beginning to conceive the length and size of a possible
          future program over the next year. In this stage, there are a range of interrelated issues
          that would affect funding scenarios (GDA, trade, conflict prevention, ESF and INC


                                                                                                   15
                                                                                  Appendix I

   levels, etc.) and the timing of the new strategy. Parameters for our future program have
   also yet to be set. Over the coming two years, we will be working with a newly elected
   GOE, and of course a new Embassy Front Office in securing mutual agreement with
   AID/W on future overall planning levels for the program. Given all of the foregoing
   variables and unknowns, then, we trust that you understand our concerns on this
   recommendation; we are unable to assess what short falls there might be or when they
   might occur, at this point.

4. Document field visit strategies. The Mission will prepare a document where a
   methodology will be established to document field visit strategies. Also the document
   will contain a methodology to document the validation of indicators.

5. Mitigating controls to compensate the lack of segregation of duties. The Executive and
   Controllers Offices will evaluate this and will document the mitigating controls that are
   in place or will be implemented in the future.

6. Perform a 12-month analysis of vehicle gas mileage on the mission’s vehicles to
   determine if the mileage is reasonable. EXO will prepare a 12 month trend analysis of
   vehicle performance and cost.

7. Contract for a financial audit of the International Organization for Migrations (IOM). A
   two year audit (2002-2003) is planned, and is expected to start the second quarter of
   FY03.

8. The Executive Office should consider collecting data to measure performance. The
   Executive Office will begin to collect data to track performance measures with respect to
   its operations.

9. Include detailed recovery steps, a testing strategy and a testing schedule in the
   information systems contingency plans. A recovery and contingency plan has been
   developed. It was tested during a real situation and worked well. The final version of the
   plan will be ready after the ISSO clearance.

   Finally it is important to note that the Mission found this exercise very useful to identify
   areas of high, medium and low risk. The Mission will take the necessary measures to
   reinforce or implement new controls in all areas identified as having a “high” risk
   exposure. Also, the Mission will try to improve all controls related to areas of
   “moderate” and “low” risk exposure.


   cc. Steve Bernstein, RIG/San Salvador
       John Vernon, RIG/San Salvador




                                                                                            16
